<html>
<title> - [H.A.S.C. No. 111-130] REVIEW OF THE DOD PROCESS FOR ASSESSING THE REQUIREMENTS TO IMPLEMENT REPEAL OF DON'T ASK, DON'T TELL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-130] 

 REVIEW OF THE DOD PROCESS FOR ASSESSING THE REQUIREMENTS TO IMPLEMENT 
                    REPEAL OF DON'T ASK, DON'T TELL 

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 3, 2010

                                     
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-127 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
               Michael Higgins, Professional Staff Member
                 John Chapla, Professional Staff Member
                      James Weiss, Staff Assistant















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, March 3, 2010, Review of the DOD Process for Assessing 
  the Requirements to Implement Repeal of Don't Ask, Don't Tell..     1

Appendix:

Wednesday, March 3, 2010.........................................    31
                              ----------                              

                        WEDNESDAY, MARCH 3, 2010
 REVIEW OF THE DOD PROCESS FOR ASSESSING THE REQUIREMENTS TO IMPLEMENT 
                    REPEAL OF DON'T ASK, DON'T TELL
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Ham, Gen. Carter F., USA, Commanding General, U.S. Army Europe, 
  Co-Chair of the Don't Ask, Don't Tell Working Group............     7
Johnson, Hon. Jeh C., General Counsel of the Department of 
  Defense, Co-Chair of the Don't Ask, Don't Tell Working Group...     6
Stanley, Dr. Clifford L., Under Secretary of Defense for 
  Personnel and Readiness, U.S. Department of Defense............     6

                                APPENDIX

Prepared Statements:

    Davis, Hon. Susan A..........................................    35
    Stanley, Dr. Clifford L., joint with Hon. Jeh C. Johnson and 
      Gen. Carter F. Ham.........................................    45
    Wilson, Hon. Joe.............................................    38

Documents Submitted for the Record:

    January 20, 2010, letter from Mr. McKeon to Secretary Gates 
      and Admiral Mullen, with attached memorandum...............    49

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 REVIEW OF THE DOD PROCESS FOR ASSESSING THE REQUIREMENTS TO IMPLEMENT 
                    REPEAL OF DON'T ASK, DON'T TELL

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                          Washington, DC, Wednesday, March 3, 2010.
    The subcommittee met, pursuant to call, at 2:45 p.m., in 
room 2118, Rayburn House Office Building, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good afternoon everybody. Today the 
subcommittee will hear testimony about the Department of 
Defense's process for implementing a repeal of Don't Ask, Don't 
Tell. The President has made clear that this fundamental 
injustice should not be tolerated.
    Now, Secretary Gates and Admiral Mullen have set in motion 
a study group to determine what needs to be done to implement 
repeal of this law, and they have called for a comprehensive 
examination. And this issue deserves no less. When it comes to 
repeal, the question is not whether, but how and when.
    The President and our civilian and military leadership in 
the Pentagon have stated the need for repeal. A majority of 
Americans now see repeal as not only in our national security 
interest, but also in standing with the principles of America. 
I would ask those who oppose repeal to join us on the right 
side of history.
    I understand and support the position of our civilian and 
military leadership that comprehensive analysis should 
accompany any decision of this importance, to include outreach 
to service members and their families, to ensure we understand 
all perspectives on the issue.
    The purpose of this hearing is for the witnesses to help 
the subcommittee understand what you want to learn and how you 
plan to become better informed about any possible challenges 
surrounding repeal of Don't Ask, Don't Tell. Since the 
Department does not customarily poll service members before 
making these tough personnel decisions, we need to know what 
type of information you are seeking that will allow the 
Department to craft and implement a policy that will be 
successful.
    While I appreciate the intent of this review, I believe the 
evidence would suggest a quicker solution is possible and, 
indeed, necessary. Public opinion supporting repeal is strong, 
and as the public's tolerance for open service grows, so too do 
the financial and readiness costs of the policy that removes 
members of the volunteer force, many with critical skills, at a 
time when other service members are seeing repeated deployments 
to Iraq and Afghanistan.
    Additionally, our North Atlantic Treaty Organization (NATO) 
allies serving beside us in Afghanistan and other nations have 
moved to accept the service of openly serving men and women, 
and have experienced no loss in unit cohesion and combat 
readiness.
    And finally, the 1993 RAND study on the strategy needed to 
successfully implement repeal provides a blueprint that can be 
quickly updated to fit today's environment. In my view, part of 
this blueprint should include a moratorium on discharges while 
the Department decides how to implement repeal.
    I was disappointed that the Secretaries of the military 
departments and the service chiefs viewed a moratoria on 
separations during the study process as potentially disruptive, 
and I believe that there is a way to stem the tide of these 
painful and unnecessary discharges, especially those instigated 
by third parties, and avoid subjecting the force to confusion 
about the direction of this policy. Sound, positive leadership 
can and will be the key to bringing an end to the separation of 
gay men and lesbians and ensuring that readiness and unit 
cohesion do not suffer as a result.
    To assist us in understanding the repeal process, we are 
fortunate to have the top personnel official at the Department 
of Defense (DOD) and co-chairs of the working group tasked with 
the responsibility to fulfill Secretary Gates' call for a 
comprehensive study.
    I would like to introduce our panel today. Secretary 
Clifford L. Stanley, the Under Secretary of Defense for 
Personnel and Readiness; General Carter F. Ham, United States 
Army Commanding General, U.S. Army Europe; and Honorable Jeh C. 
Johnson, General Counsel of the Department of Defense.
    Welcome to each of you, and I want to thank you for being 
here. We recognize the difficulty of your presence here today 
and that you really have not had a chance to embark on this 
study, but it is important, and I think it will be helpful for 
us to hear from you, but also perhaps for you to hear the views 
of the members of this subcommittee.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 35.]
    Mrs. Davis. Mr. Wilson, do you have some opening remarks.

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
   CAROLINA, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. Wilson. Yes, Madam Chairwoman Davis, I join you in 
welcoming our witnesses, all three of whom are appearing before 
us for the first time. Unlike most hearings when we receive 
testimony from task forces and study groups at the completion 
of their work, this time we will have the opportunity to 
examine and assess the objectives and scope of the work of the 
study group just beginning its efforts. This also gives us the 
opportunity to shape the group's work effort.
    We have heard clearly from the senior leadership of the 
Department of Defense and each of the military services of the 
importance of this study and the necessity of doing nothing to 
repeal, change, or suspend current law until this group study 
completes its work. I fully support such an approach.
    Furthermore, I believe until this committee and Congress 
have had the opportunity to review and assess the 
recommendations of the study group and those of the Department 
of Defense, which we expect at some point after December 2010, 
we should not rush suddenly into action. I am sure our 
witnesses know Ranking Member McKeon wrote the Secretary of 
Defense and Chairman of the Joint Chiefs of Staff in January 
setting out a series of issues to be examined, as well as 
requirements for evidence to be presented to Congress before 
Congress could make an informed judgment about the repeal of 
section 654, title 10, U.S. Code. I ask unanimous consent that 
the letter and the attachment be entered into the record. Thank 
you.
    [The information referred to can be found in the Appendix 
on page 49.]
    Mr. Wilson. Further, I ask the staff now to distribute 
copies of Mr. McKeon's letter to members of the subcommittee, 
some of whom may not be familiar with it, and to the witnesses.
    The central focus of the letter is the fourth paragraph, 
reflecting the fact that the responsibility for deciding this 
issue rests with Congress, not the President, the Secretary of 
Defense, or the Chairman of the Joint Chiefs.
    The fourth paragraph reads, ``Ultimately, one 
responsibility of this committee is to ensure that legislation 
enacted improves the readiness of the Armed Forces. No action 
to change the law should be taken by the administration or by 
this Congress until we have a full and complete understanding 
of the reasons why the current law threatens or undermines 
readiness in any significant way, whether a change in law will 
improve readiness in measurable ways, and what the implications 
for and effects on military readiness, cohesion, morale, good 
order and discipline are entailed with the change in the law.''
    Given its mandate from the Secretary of Defense, I am 
concerned the study group will focus its efforts solely on the 
third requirement, the implications of change, and not present 
Congress with evidence to decide the first two fundamental 
issues: one, why current law threatens or undermines readiness 
in any significant way; and two, whether repeal of the current 
law would improve readiness in measurable ways. If the study 
does not address these issues, then its overall credibility and 
usefulness for the congressional decision-making process will 
be significantly undermined.
    I would ask during the course of this hearing for Mr. 
Johnson and General Ham to commit to us that they are fully and 
objectively to explore the first two fundamental issues raised 
by Mr. McKeon and present the evidence of that examination in 
their final report. Secretary Stanley, this is a tough issue to 
break in on, but it is one that your predecessors have had to 
deal with.
    As you know, a central argument of the proponents for the 
repeal of section 654 is that repeal is a military necessity, 
because in time of war the military services need every willing 
and able person to serve, and the discharge of more than 13,000 
people because of section 654, since 1993, has hurt military 
readiness.
    Your predecessor, Dr. David Chu, addressed this issue in 
July 2005, in the fourth year of the global war on terrorism, 
when he testified before this committee. ``It, the loss of 
personnel due to section 654, is not, speaking frankly, a 
significant factor in our attrition experience, and the loss 
generally occurs early in someone's service.''
    I would like to hear from you today whether you agree or 
disagree with Dr. Chu's assessment, and whether you agree with 
the advocates for repeal of section 654 that repeal is a 
military necessity.
    Further, I would like to hear from you whether the 
discharge of personnel under section 654, especially during the 
time of war, has negatively impacted the readiness of our 
military services in any measurable or significant way.
    Based on the data recently provided to this committee by 
the Department of Defense and military services, I would guess 
your objective assessment would be that you would agree with 
Dr. Chu.
    For example, during fiscal year 1999 through fiscal year 
2008, 8 of those years being wartime years, the military 
service separated more than 1.9 million people; 8,300 of those, 
less than one-half of 1 percent, were as a result of section 
654. That is about 800 people being discharged per year. And 
unless you contradict me, that is not a significant loss from 
an overall DOD manpower perspective.
    Moreover, your Department's own data shows that the 
discharge of personnel under section 654 has not affected the 
ability of the military services to recruit or retain high 
quality people in numbers that meet or exceed Department 
requirements. According to the Department data, fiscal year 
2009 was the best year for recruiting in the active duty, 
national guard and reserve forces in the history of the all 
volunteer force.
    Nor has section 654 inhibited the ability of the Army, 
Marine Corps, and the Army National Guard to increase manpower 
significantly while fighting two wars and at rates of annual 
growth exceeding expectations.
    Furthermore, the Department's own data undercuts the 
assertion that section 654 must be repealed because in time of 
war this nation needs to attract and retain all the qualified 
people it can who want to serve.
    For example, both the Navy and Air Force have made 
significant manpower reductions during the last 10 years, 
totaling some 77,000 personnel. To achieve such reductions the 
services used measures not only to reduce the numbers of new 
recruits, but also to entice or force people to leave the 
service. In short, both services, in time of war, for 
reasonable and justified good of the service reasons, have 
denied service to tens of thousands of persons who otherwise 
qualified to serve and wanted to serve. Such actions, it seems 
to me, only reinforce the congressional finding in 1993 that 
there is no constitutional right to serve in the military.
    Dr. Stanley, taken as a whole, the Department's own data 
over the last 10 years refutes the argument that repeal of 
section 654 is a military necessity, and supports General 
Conway's statement that current law appears to be working well. 
If you disagree with regard to the conclusions drawn from the 
Department's data, we would like to hear from you today on this 
point.
    Before closing, I would like to come back to some critical 
questions raised by Mr. McKeon's letter and ask for assurances 
from Mr. Johnson and General Ham that the study committee will 
address them in detail.
    A critical area that needs to be examined by the study 
group is the impact of a repeal of section 654 on military 
family readiness. As our Chairman, Ike Skelton, frequently 
points out, ``If mama ain't happy, nobody is happy.'' Family 
readiness today equates to military readiness. How families 
feel about military service has a direct impact on retention, 
and repeal of section 654, that will have a direct impact on 
military family culture.
    Tied closely to the potential impact on military family 
readiness and culture is the issue of eligibility for benefits. 
Specifically, Mr. Murphy's bill, H.R. 1283, to repeal section 
654, would not require dependent benefits to be provided if 
such provision would be in violation of the Defense of Marriage 
Act. Such a prohibition would seem to extend to any federal 
benefit, such as veterans benefits, for which married military 
spouses and dependents or survivors of military personnel are 
eligible.
    Knowing that family readiness is a major factor in 
maintaining the all volunteer force, Mr. McKeon asked for an 
evaluation of the limitation of benefits created by the Defense 
of Marriage Act in H.R. 1283. In terms of its effect on 
cohesion, morale, good order and discipline, would enactment of 
this limitation create a wide diversity of benefits between 
legally married couples and families, regardless of their 
orientation? If so, how would this diversity of benefits affect 
family readiness, morale and cohesion? To effectively implement 
a repeal of section 654 in a manner that does not create 
disparities between the benefits of legally married couples, 
regardless of their orientation, would the Defense of Marriage 
Act have to be repealed or amended?
    Finally, a key element of Mr. McKeon's request is the need 
for credible, substantive, comprehensive and objective data and 
information from the Department of Defense. I am concerned the 
Department of Defense may be creating actual or perceived 
obstacles to achieving that objective. Specifically, we 
understand the study group considering has contracted with RAND 
to carry out on a potential repeal of section 654. If accurate, 
I believe the study group will prejudice from the outset the 
perceived credibility and objectivity of the results and 
recommendations. I say this because RAND's 1993 effort raised 
significant concerns about its comprehensiveness and 
objectivity.
    More recently, RAND's prejudgment, as well as lack of 
original work, was evident in a November 2009 report that used 
data collected by the Palm Center to support, not surprisingly, 
the repeal of section 654. We understand RAND is a well-
recognized and competent research entity in many areas. 
However, given RAND's history on this issue, I believe even if 
RAND were able to produce a product that was comprehensive and 
objective in the study group's view, it will never be seen as 
such by others and will ultimately poison the overall 
perception of the study group's efforts.
    To help minimize potential criticism that the group study's 
survey methods and instruments were designed to cook the books 
to support the President's desires, I would strongly recommend 
the Department rely primarily, if not exclusively, on its own 
significant in-house survey and study capabilities; that any 
external survey, polling or studies not done by the Department 
be carried out by reputable organizations that have not 
previously done study polling, survey, or analysis work on this 
issue; and that you engage both proponents and opponents of 
section 654 to help shape the survey and study questions.
    I appreciate the patience of the witnesses and my 
colleagues for this longish opening statement, but given our 
limited ability to question the service chiefs, I thought it 
was necessary to get some of the more critical issues out on 
the public table in order to ensure this study group and the 
Department of Defense could address them in this hearing. And I 
look forward to your testimony.
    Mrs. Davis. Thank you, Mr. Wilson.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 38.]
    Mrs. Davis. And Secretary Stanley, do you want to begin? 
Once again, thank you to all of you for being here.

   STATEMENT OF DR. CLIFFORD L. STANLEY, UNDER SECRETARY OF 
DEFENSE FOR PERSONNEL AND READINESS, U.S. DEPARTMENT OF DEFENSE

    Dr. Stanley. Absolutely. Good afternoon, Chairwoman Davis, 
Mr. Wilson, other members. I am, first of all, honored to be 
here to represent the men and women in uniform who are serving 
today, and their families. I have been on the job now for just 
about two weeks. I have to assure you I hit the ground running, 
and this being the first hearing, and I am looking forward to 
your questions. We have prepared a joint statement that I 
believe you have--myself, Mr. Johnson, and General Ham.
    [The joint prepared statement of Dr. Stanley, Mr. Johnson, 
and General Ham can be found in the Appendix on page 45.]
    Dr. Stanley. And at this time I will turn it over to them 
for at least the opening comments here.

   STATEMENT OF HON. JEH C. JOHNSON, GENERAL COUNSEL OF THE 
 DEPARTMENT OF DEFENSE, CO-CHAIR OF THE DON'T ASK, DON'T TELL 
                         WORKING GROUP

    Mr. Johnson. Thank you very much. My name is Jeh Johnson. I 
am general counsel for the Department of Defense. As Secretary 
Stanley pointed out, you have our prepared written statements.
    I would just like to say, in summary, that Secretary Gates 
has appointed General Ham and me to co-chair this working 
group. The goal of our working group is to assess the impacts 
of a repeal of 10 U.S.C. 654, should the Congress decide that 
is the course of action that it should take, and to develop an 
implementation plan for repeal--should there be repeal--and to 
understand all of the issues associated with the repeal of 10 
U.S.C. 654.
    We are at the outset of that process. We are just beginning 
at this stage. General Ham and I both are committed to 
conducting an objective, thorough, and comprehensive assessment 
of the repeal of 10 U.S.C. 654. Some of the guiding principles 
that we have set for the working group are as follows:
    One, that we should enlist the views and the opinions of a 
broad array of people within the service as well as, as 
Congressman Wilson has pointed out, military families. We 
believe that is important. I know Secretary Gates believes that 
is important. And we have asked working group members to set 
aside their personal opinions regarding repeal or not repeal 
and to go about their work in an objective, comprehensive 
fashion, because, frankly, that is in my experience the best 
way in which members of the U.S. military go about their work, 
if we are all asked to set aside our personal opinions and do 
the best we can as an objective, thorough analysis.
    We intend to solicit the views of organizations and groups 
that are familiar with the issue, not just within the active 
duty force, but organizations that have spent a considerable 
amount of time studying policies, studying the potential for 
repeal of the policy. And that includes groups that have a 
diverse range of opinions on the issue. We are determined to do 
that.
    We are also determined to conduct our review in a way that 
minimizes any disruption to our activities on the front lines. 
We are engaged in two wars right now. So that is one of the 
guiding principles Secretary Gates has given to us, among 
others. So, I think we all look forward to your questions.
    [The joint prepared statement of Mr. Johnson, Dr. Stanley, 
and General Ham can be found in the Appendix on page 45.]

STATEMENT OF GEN. CARTER F. HAM, USA, COMMANDING GENERAL, U.S. 
  ARMY EUROPE, CO-CHAIR OF THE DON'T ASK, DON'T TELL WORKING 
                             GROUP

    General Ham. Chairwoman Davis and Congressman Wilson, 
members of the committee, thanks for allowing us to come here 
today. When I was informed that Secretary Gates had selected me 
to co-lead this working group along with Mr. Johnson, I will 
admit to feeling humbled, honored and, frankly, a little bit 
nervous all at the same time. I would also tell you that I feel 
a strong obligation, consistent with our terms of reference, to 
ensure we have broad representation and engagement of the force 
and of their families.
    To that end, we have built a team that includes a wide 
variety of ranks, ages and military specialties. All services, 
to include the Coast Guard, are included. We have members from 
the national guard and from the service reserves. Key in our 
effort is to ensure the enlisted force has a prominent role.
    Seated behind me is Fleet Master Chief Scott Benning, 
United States Navy, who is the senior enlisted leader for the 
DOD working group. He reports to no one but Mr. Johnson and 
myself, and has full access to all that we do. All of us in 
uniform who are privileged to participate in this effort 
understand the special trust and confidence placed in us by 
you, by our Department senior leaders, and most importantly, by 
our fellow service members and their families.
    We shall do our very best every day to merit that trust. 
Thank you.
    [The joint prepared statement of General Ham, Dr. Stanley, 
and Mr. Johnson can be found in the Appendix on page 45.]
    Mrs. Davis. Thank you very much. I certainly appreciate 
your opening comments. And I know we have a number of members 
here. We are going to go to the five-minute rule. And we are 
certainly hoping to have two rounds if we can. I am sure we are 
going to be interrupted by votes along the way as well, but we 
will do the best we can.
    And I understand, I believe, Mr. Johnson, you have a 4:00 
stop; is that correct?
    Mr. Johnson. I have an invitation from the Senate Armed 
Services Committee to come see them at 4:30.
    Mrs. Davis. At 4:30. Okay. Thank you so much for that.
    First, I wanted to just clarify the objective of the 
working group. The Secretary of Defense memorandum to the co-
chairs of the comprehensive review infers that the objective of 
the working group may not be to facilitate repeal when it 
states, ``the assessment of the implications of such a repeal, 
should it occur.''
    I am just wondering, what does that say to you? I think 
that, you know, you really did try to clarify it, Mr. Johnson. 
But I am just wondering, is there anything you want to add to 
that in terms of clarifying what you believe the objective of 
this study is?
    Mr. Johnson. Well, Secretary Gates said a month ago in his 
testimony that the question is, in terms of the guidance we 
have from the President, the issue is not whether but how best. 
And I know Secretary Gates believes that if the Congress and 
the President determine that repeal of the law is appropriate, 
we should go about that in a careful, deliberate fashion and 
think through the issues associated with repeal.
    And that is what he has appointed us to do, should repeal 
occur. So I hope I have answered your question.
    Mrs. Davis. What aspects of the military environment that 
Secretary Gates and Admiral Mullen consider critical to the 
successful implementation of repeal that require research, 
study and collection of information, can you clarify what 
aspects require that?
    And then I think, really, my basic question is, you know, 
what do you want to know, and how are you going to find out?
    Mr. Johnson. The aspects that come to mind immediately are 
some of the things you seem to make issue of in the terms of 
reference that were made public, I think, yesterday.
    First of all, readiness, impact on readiness. We are 
engaged in two conflicts right now. I know Secretary Gates 
would like to know, and I know our leaders would like to know, 
and I assume the Congress would like to know what the impact, 
if any, either way, would be on recruiting and retention. As I 
mentioned earlier, we are interested in assessing the impact on 
what we call family readiness, our military families and unit 
cohesion.
    So the way I would sum it up is to say the impact on 
readiness, impact on family readiness, and the effects, if any, 
on recruitment and retention.
    Mrs. Davis. Have you all had a chance to think through--and 
again, I know that this may be premature--how you intend to get 
that information? We all can anticipate that there might be 
some surveys, but I also would wonder about face-to-face 
interviews that might be helpful as well.
    We know that we have all had, you know, the discussions 
here around post-traumatic stress disorder (PTSD), for example, 
and the questions that are asked of returning troops, which may 
or may not be valid down the line.
    And I am just wondering, you know, whether there is an 
anticipation of a lot of face-to-face discussion, whether it 
would be done more under surveys, and how we reach out to 
families. What do you think is likely going to be a good 
vehicle for this?
    General Ham. Madam Chairman, I think the issues that you 
have addressed are exactly what we are thinking about. We in 
principle--what Mr. Johnson and I are envisioning at the 
direction of the Secretary of Defense is wide outreach to get a 
wide variety of views. In that effort, we envision a survey 
instrument of the force and of their families to get their 
sense on the issues that are outlined in the terms of 
reference.
    We absolutely agree with you that that survey must be 
enriched by personal contact, focus groups, if you will, some 
of them specifically targeted to specialized groups and 
families within the Department of Defense, active, reserve and 
national guard. We think that personal interaction is very 
important.
    And thirdly, we envision outreach through social media, so 
that a wide variety of individuals, both within the Department 
of Defense and without, who will have views on this matter have 
an opportunity for their voice to be heard.
    Mrs. Davis. Do you anticipate that--focusing on whether or 
how, or a combination perhaps of both?
    General Ham. It really is on ``how.'' As you indicated, 
Madam Chairman, we don't poll the force on difficult decisions 
of should we do this or should we not do that. In this regard, 
it is much more important for us to, as we survey the force and 
conduct these focus groups and reach out to groups, is to 
understand the implications of repeal, should it occur, so that 
necessary policy adjustments, if required, can be foreseen and 
envisioned. So it is ``how.''
    Mrs. Davis. Thank you. Mr. Wilson.
    Mr. Wilson. Thank you, Madam Chairman. Again, thank all of 
you. And first time here, good luck.
    And Mr. Johnson and General Ham, I am concerned that the 
direction given to you by the Secretary of Defense will not 
result in your study group examining two fundamental questions: 
whether current law threatens or undermines readiness in any 
significant way; and two, whether repeal of current law would 
improve readiness in measurable ways.
    Would the two of you commit to us today that you will 
examine these two questions as part of your study and provide 
the Secretary of Defense with your data, findings, and 
recommendations regarding them?
    And General Ham, in your personal view, do you believe 
these questions should be examined? If examination of these two 
issues is not in your current charter, would you object to them 
being added, either by the Secretary of Defense or by Congress?
    Mr. Johnson. I think, Congressman, let me start. I think 
that if we do a comprehensive and thorough job, a necessary 
component of that would be to look at the two questions you 
raised.
    Mr. Wilson. Thank you.
    General Ham. Congressman, I would agree. It was again clear 
to me in the terms of reference and in our discussion with the 
Secretary of Defense that military readiness and effectiveness 
must retain primacy here; that is, that is what you expect of 
us, that is what the nation expects of us, and we will clearly 
examine that as directed in the terms of reference.
    Mr. Wilson. And in looking at both of your backgrounds, I 
am very impressed, and so I am not surprised at the high 
integrity that you both just indicated. Thank you very much.
    Dr. Stanley, taken as a whole, the Department's own data 
over the last 10 years with regard to recruiting, retention, 
and end strength, as well as practices of the Navy and Air 
Force to reduce manpower levels in wartime, refutes the 
argument that repeal of section 654 is a military necessity, 
and supports General Conway's statement that current law 
appears to be working.
    Do you agree with this assessment? Why or why not?
    Dr. Stanley. Well, in my opening statement I said that I 
have been here for a couple of weeks, but I am not new to this 
discussion. As I joined the Secretariat, my marching orders 
were pretty clear. I am open-minded. The Secretary of Defense 
has given me some orders here that basically lay out exactly 
what we are expected to do, which is to study, make an 
assessment, and do a review to look into the questions or the 
issue that you are raising right now. So agreeing or 
disagreeing with General Conway would actually be part of, at 
the end of the day, the process of exactly what do we have in 
the assessment.
    Mr. Wilson. And again, your background is such that I take 
what you say very accurately. And General Ham, I would like to 
have your personal views on, one, whether the repeal of section 
654 is a military necessity; and two, whether you agree with 
General Conway that current law, that section 654 is working.
    General Ham. Congressman, my personal view is that we 
should carefully study the implications of repeal, should that 
occur, before we make change. And I believe that is precisely 
what Secretary Gates has charged Mr. Johnson and myself with 
doing.
    Mr. Wilson. Thank you. And Dr. Stanley, based on the data 
provided by your Department, discharge of people under section 
654 does not seem to have had any effect on the quality, 
ability of the military services to recruit and retain high-
quality people in numbers that meet or exceed Department and 
service requirements. Moreover, section 654 has not inhibited 
the Army, the Marine Corps or national guard from rapidly 
expanding their manpower levels, while fighting two wars, at 
rates of growth that exceeded expectations. Do you agree with 
the assessment that section 654 is no significant barrier to 
successful recruiting, retention, and end strength growth in 
wartime?
    Dr. Stanley. Congressman, I hope that the assessment or the 
review that we are going to be doing will be able to answer 
that question. I can't answer that question right now, but I 
will say that I know that as we go forward we will be able to 
answer more accurately in the future. I am sure we will.
    Mr. Wilson. Again, thank all of you for your effort. I wish 
you well as you pursue this issue. And I yield the balance of 
my time.
    Mrs. Davis. Thank you. Dr. Snyder.
    Dr. Snyder. Thank you, Madam Chairman. And thank you for 
doing this hearing. Gentlemen, thank you for being here. I 
appreciate your work at this important time in our history. I 
want to assure you, I think your work is not only important, 
but it will be used.
    I know that there are people who are opposed to changing 
this policy. The policy will be changed. I mean, even some of 
those people who are opposed to the change recognize it will be 
changed. There is a generational thing going on here. America 
is changing, the world is changing, and your work will be put 
to good use. Whether it will be this month, this year, next 
year, the following year, I don't know. But if you do a good 
job, you will provide guidelines to your country and your 
military. And we appreciate your work.
    I wanted to ask, Mr. Johnson, you probably heard this 
question I have asked about 17 times, and you and I have had 
some discussions about the split of authority between the Ninth 
Circuit and the First Circuit. And when I hear people say, as 
Senator McCain has said, and my good friend, the Commandant has 
said, that the current policy is working well, I have to ask 
what their definition of working well is.
    When you have different sections of the country under 
different legal opinions about exactly what the reach and 
authority of that law is, that is not my definition of working 
well.
    My question is: How have you and the military responded in 
the Ninth Circuit? What are you doing differently now in the 
States of California, Idaho, Oregon, and Washington, in light 
of the Ninth Circuit opinion which is not being appealed?
    Mr. Johnson. Dr. Snyder, as you and I have discussed in the 
past, the decision in Witt v. Department of the Air Force in 
the Ninth Circuit creates what we lawyers call a split in the 
circuits. The rule of law there is different than the rule of 
law in all the other circuits. We in the Department of Justice 
have been very actively working through how that split in the 
circuits should be applied and implemented throughout the 
force. We have put out guidance to our lawyers to inform them 
of the decision. I certainly have. And we continue to work 
through how to address whatever pending cases exist within the 
Ninth Circuit versus the other circuits. So it is something we 
are actively looking at right now with the Department of 
Justice.
    Dr. Snyder. One of the service Secretaries made a comment 
here at this committee last week, full committee, that they 
were applying the law nationally the same, consistently. And 
when I said, are we ignoring the Ninth Circuit, there was a 
little bit of backpedaling. But it is a terrible problem, I 
think, for you to be in.
    Now, the second part of that question is: What are you 
doing with regard to--not at the legal level. I mean, you can 
certainly take every case to the courts and lose at the 
District Court level who will cite the Ninth Circuit over and 
over and over again to States, or you can send direction to 
commanders and legal authorities throughout those States that 
say there is now a category of gay and lesbian service members 
that, if they meet these following criteria, they indeed can 
serve, even though we know they are gay and lesbian.
    Now, have you made those kinds of statements?
    Mr. Johnson. Well----
    Dr. Snyder. Otherwise, you are going to just have a series 
of litigations, are you not?
    Mr. Johnson. Well, the Witt case, as you know, Congressman, 
requires an intermediate level of constitutional scrutiny to 
the policy. We have to balance that against applying the law as 
the Congress has given to us. We say consistently within the 
Department of Defense that we apply the law, we faithfully 
implement the law in as fair and as balanced a way possible. We 
have got to balance that against the rule of law that Witt has 
created for us in the Ninth Circuit. It is a complex exercise 
that we are working through right now with the Department of 
Justice. I have had discussions with them as recently as 
yesterday on this very topic.
    Dr. Snyder. So at this time, there have been no different 
directions given to base commanders, Judge Advocate General 
(JAG) officers, that a certain number of cases meeting certain 
criteria, there is no reason to move ahead with those cases 
because they would be overturned in the Ninth Circuit.
    Mr. Johnson. Not right now, in any formal way, but it is 
something I am actively thinking about.
    Dr. Snyder. I will ask one quick question in my 13 
remaining seconds. In your terms of reference, you say, 
``Recommend appropriate changes of any of the Uniform Code of 
Military Justice (UCMJ).'' Is one of those provisions under 
consideration, the sodomy section that prohibits oral sex 
between married men and women?
    Mr. Johnson. We are undertaking a comprehensive review of 
the UCMJ, and I would imagine that that would be one of the 
provisions we would focus on. But the UCMJ is a focus of our 
review.
    Dr. Snyder. I understand. Thank you.
    Mrs. Davis. Thank you. Mr. Murphy is next.
    Mr. Murphy. Thank you, Mrs. Chairman. Thank you for 
everybody on the group today. Mr. Johnson, General Stanley--and 
General Stanley, I know you are two weeks, and this is your 
first hearing. So congratulations. And General Ham, I know, 
General Ham, you mentioned that you were nervous a little 
serving as co-chair. I am sure you were nervous as an 18-year-
old infantryman, or I should say paratrooper in the 82nd 
Airborne Division, but we are not going to be asking you to 
jump out of any perfectly fine airplanes today or in the 
future. But we do appreciate your service to our country. We 
understand this is an issue that the American people and our 
military care deeply about.
    And I want to echo what Chairwoman Davis said, in that be 
very clear that what we are talking about today is that this is 
a hearing--it is not to discuss if we are going to repeal Don't 
Ask, Don't Tell, because it has been pretty clear that 
President Obama, Admiral Mullen, and Secretary Gates have 
already made it very clear that we are going to repeal the law.
    The discussion today, though, is how the services will 
implement repeal in a way that will ensure that there is no 
disruption in our force. I am grateful that you volunteered to 
co-chair the Don't Ask, Don't Tell working group. We should 
move forward with care. And we should also understand that this 
review, though, cannot be an excuse for delay. Repeal must be a 
dual-track process. The working group and the services must 
figure out how to implement the changes, but it is the 
Congress' duty to change the law. There is no reason why these 
two processes cannot happen simultaneously.
    The 2010 Defense Authorization Act did not become law until 
October 28, 2009. The 2009 Defense Authorization Act became law 
on October 14, 2008. My point is that if we attach repeal of 
Don't Ask, Don't Tell in the fiscal year 2011 defense bill, it 
will not likely become law until at least seven months from 
today.
    Secretary Gates stated that the working group, your working 
group, will have finished its work by December 1 of this year, 
2010. So Congress could put repeal language in this year's 
Defense Authorization Act with a delayed date of enactment, 
which is how it is written currently. So the statute would be 
changed at the end of this year, but full repeal would not take 
effect until sometime in 2011.
    Would you agree that this would give your group, your 
working group, ample time to complete its study and prepare the 
services for implementation of its findings?
    Mr. Johnson. Congressman Murphy, I think that the approach 
you have just outlined, there are some aspects of it that we 
should carefully consider. I think there are some intriguing 
aspects to it. I want to be sure that in our review, we hit all 
of the right issues, make all the adequate, thorough 
assessments. I would think that our review might inform what 
this Congress wants.
    So our work is due to the Secretary of Defense on December 
1. That may well touch upon how the Congress decides to go 
about repeal. So I want to think about and carefully study the 
approach you have outlined. But as I see it, our work would not 
just be relevant to any implementing regulations, but it may 
well be relevant to how you fashion a legislative approach.
    Mr. Murphy. But Mr. Johnson, you would agree that at the 
same time that you are working on the working group, the 
Congress can get busy in looking at the repeal and have the 
debate about finally repealing the law.
    Mr. Johnson. I would not undertake to tell the Congress 
about what to do with their timetable.
    Mr. Murphy. So you do not oppose Congress taking such 
action.
    Mr. Johnson. I am not here to oppose or support any 
particular congressional action. We are here to do an 
exhaustive, thorough, comprehensive review of the impact of 
repeal of the policy.
    Mr. Murphy. Okay. Anybody else?
    Opponents of the repeal argue that allowing open service 
members would harm morale and unit cohesion. Yet my experience 
in the Army and the stories that I hear from our young American 
heroes point to the exact opposite.
    You know, one company commander who happened to be gay, 
currently serving his second deployment in Afghanistan, wrote 
me a letter recently that exemplified how Don't Ask, Don't Tell 
harms unit cohesion. He discussed how his repeated deployments 
since 9/11 have broken up his relationship with his partner, 
but also how Don't Ask, Don't Tell made it impossible for him 
to confide in his battle buddies. He had thought of suicide, 
but had no one to turn to because of fear of losing his job.
    He wrote to me. He said, and I quote, ``Gay soldiers should 
have the right to go to a commander, a first sergeant, or a 
battle buddy, and not have to worry about the ramifications of 
Don't Ask, Don't Tell. The Don't Ask, Don't Tell policy 
shackles the hands of leaders like me. It prevents us from 
giving our all to our troops and a supportive leadership that 
they deserve.'' The Don't Ask, Don't Tell policy throws up 
walls between battle buddies.
    There are an estimated 66,000 gays and lesbians currently 
serving, and they are the ones who are most impacted by Don't 
Ask, Don't Tell. How is the working group going to take into 
account the experiences and views of gay service members, like 
this officer, without violating Don't Ask, Don't Tell?
    Mrs. Davis. I hope we can get that response in as we 
continue, and perhaps you can ask it again later. Okay, thank 
you. Mr. Fleming. Dr. Fleming.
    Dr. Fleming. Yes, thank you, Madam Chairman. Just a comment 
before I ask questions. I realize that the President wants this 
policy, but he is not a king. We will have to vote on that. So 
I don't think that our President can decide unilaterally that 
we will repeal Don't Ask, Don't Tell.
    My question to the three panel members, first, is: Is the 
primary purpose of our military to stand ready to protect 
Americans or to be a force for social change? I would like to 
hear from each one of you.
    Mr. Johnson. The primary purpose of the United States 
military is to defend the nation.
    Dr. Fleming. Okay. Yes, sir.
    Dr. Stanley. I concur. The primary purpose is to defend our 
nation.
    General Ham. Absolutely agree.
    Dr. Fleming. Yes, sir. Thank you.
    I am not sure who is best able to answer this question, but 
I am sure among the three of you, someone will be able to. How 
well are we meeting recruiting goals at this point, or 
certainly in the year 2009?
    Dr. Stanley. We are not only meeting but exceeding in the 
active, national guard and reserve, our goals across the board.
    Dr. Fleming. Okay. So that would certainly imply--I 
certainly infer from that that our current policy doesn't 
appear to be hurting our recruitment abilities at this point. 
How many service members were removed as a result of Don't Ask, 
Don't Tell policy in 2009?
    Mr. Johnson. 428.
    Dr. Fleming. 428.
    Mr. Johnson. That is the number that I have, 428.
    Dr. Fleming. And that is for the year 2009?
    Mr. Johnson. I could be off by a couple, but I think it is 
428.
    Dr. Fleming. Right. And what is the total size of our 
military?
    Mrs. Davis. Excuse me, Mr. Johnson, if you could just make 
sure that we hear you. Bring your mike--just put it a little 
closer to you. That would be great.
    Mr. Johnson. The number I mentioned was 428.
    Dr. Fleming. Okay.
    Dr. Stanley. Counting the approximate with national guard, 
reserve and active, because it is hard to separate total force, 
we are about 3 million.
    Dr. Fleming. Okay. So less than 500 out of 3 million. So it 
seems to be certainly not a lot of people are being affected 
one way or another, service members, at least being removed, I 
think we could all agree percentage-wise, and I would just 
really open the floor to what do you see, from your standpoint, 
what have you seen in terms of the current policy and how it is 
adversely affecting readiness for our military?
    Mr. Johnson. Congressman, I will let General Ham answer 
that. I will just at the outset say that we are at the 
beginning of the process and that is one of the things that we 
are----
    Dr. Fleming. Well, I am just asking you to draw on your 
experience. You know, to begin with, as I understand it, this--
what we are doing is pivoting off of a 1993 RAND study that 
studied not whether to implement this policy, but how best to 
implement the policy, and that we are going to try to I guess 
update the study. Am I correct about that?
    General Ham. Yes, Congressman, that is one of the things 
that Secretary Gates has directed us to do.
    Dr. Fleming. Right. So I was just asking your personal 
opinions and observations with your exposure to the military, 
what have you seen, what observations have you made in which 
our current policy has harmed our ability in terms of readiness 
and the ability to defend the Nation?
    General Ham. It is clear to me, as a long-serving soldier, 
that our military is clearly the best military in the world. 
The challenge to us, and the task passed to Mr. Johnson and 
myself, is to assess the impact on that standing, should the 
current law be repealed. So that is what we shall endeavor to 
do.
    We have not yet decided exactly how to do that. But we know 
at the beginning of this process, that that is foundational to 
our work, is to assess the impact on readiness, should the law 
be repealed.
    Dr. Fleming. Any other gentlemen?
    Mr. Johnson. Congressman, if I could just go back to your 
first question. The primary mission of the United States 
military, as I said, is to defend the nation. Having said that, 
I think that the U.S. military is proud of the fact that it is 
one of the most diverse institutions in America, and we have a 
track record for being a diverse institution.
    Somebody once told me--and I don't know whether this is, in 
fact, true--but somebody once told me that the United States 
military is the community where interracial marriage is most 
prevalent. It wouldn't surprise me if that were, in fact, the 
case. But we are very proud of our racial and cultural 
diversity of people who are all dedicated to a common mission 
once they have been given their orders to do something.
    Dr. Fleming. But you would agree that the primary purpose 
is not to invoke social change, but to be ready for war, which 
we do frequently around here, as you know.
    So, thank you gentlemen.
    Mrs. Davis. Thank you. Mr. Johnson.
    Mr. Johnson of Georgia. Thank you, Madam Chairman, for 
holding this hearing. I am in full support of and a cosponsor 
of H.R. 1283, which my colleague, Patrick Murphy of 
Pennsylvania had the courage to introduce. And I am also in 
favor of doing right by the people who are called, who give of 
themselves to protect the rights that we hold dear. And whether 
or not they are gay, lesbian, straight, bisexual, transgendered 
individuals, makes no difference.
    If you were to cut people open, to dissect them, after you 
looked at them, you would see that they have got eyes, ears, 
nose, mouth, teeth, legs, two legs, two arms. They have, you go 
inside--I'm not going to talk about what else I could see from 
the outside, but you go inside, everybody's got a brain, 
thyroid, heart that hurts when you get discriminated against. 
Everybody's got, you know, an intestinal system, respiratory 
system. We are all the same people regardless of the color, 
regardless of nationality, regardless of sexual identity. That 
is just a basic fact.
    And so, when we talk about defending freedom in this 
country, it is hypocritical for us to have a government-
sponsored discrimination set up. And it really needs to change. 
And Mr. Murphy, I admire your courage, being a military man 
yourself, the classic sergeant, as far as I am concerned. And 
now you have become a general in my mind as far as prosecuting 
this war on discrimination in the military. To do a study and 
to--so, in other words, the point I am making, let's go ahead 
and pass H.R. 1283 now, and then during the transition period, 
we can look into all of the complicated issues that you all 
need to look into. No question about it.
    But let's change the policy so that we send a message to 
those who would be surveyed under your policy that, let's, you 
know, let's not send the wrong message as we go out and talk to 
people, servicemen and women and their families, and hear what 
their thoughts are on the process.
    What you are going to find is some people are polarized. 
Some people don't like gays, and other people do. And that is 
just going to be the end of it. The question is: What kind of 
policy is the United States Government going to have? Is it 
going to allow this discrimination or is it going to ban it and 
then expect the men and women in service for this country to 
abide by the change? And I believe that those men and women 
will, if they have got a problem.
    And so having said that, are we sending a message with our 
current policy that we have in place, are we sending a message 
when we go out and survey men and women in the military insofar 
as their personal opinions about removal of this policy which 
is evidenced in section 654?
    Mr. Johnson. We, Congressmen, intend to do a comprehensive, 
methodical study of the assessments of repeal, which I expect 
will include some form of survey.
    Mr. Johnson of Georgia. Why can't it be done after passage 
of the legislation?
    Mr. Johnson. Well, that depends in large part on what type 
of legislation, if any, the Congress chooses to adopt. As I 
said earlier to Congressman Murphy, the Secretary of Defense 
believes that we should go about repeal in a careful, 
methodical way and first study the impact, all of the impacts 
of repeal of the current policy. I would think that the 
Congress would like to hear from us first before undertaking to 
consider repeal of section 654 of title 10 U.S.C. I suspect 
many in Congress would ask for the results of our study before 
taking this issue up.
    But as I said to Congressman Murphy, in effect a two-track 
approach is one that I think we will have to consider in some 
form. I am not ruling that out or ruling it in. We are at the 
beginning of this process, and the Congress on its own, in its 
wisdom, could choose to undertake legislative action in this 
area, irrespective of what we do. But I would think that 
Members of Congress would like to go about this being informed 
by our work.
    Mrs. Davis. Thank you. Ms. Tsongas.
    Ms. Tsongas. I would like to sort of follow a track that we 
sort of have been hearing a little bit here. And the reason is, 
as you see the questions we have, we tend to break down by our 
party and our view of whether or not we should go forward with 
the repeal of Don't Ask, Don't Tell. And given our fundamental 
belief, it guides us in our questions and our views of how 
things should proceed.
    And given your very important role in developing an 
approach should Congress repeal this policy, I just would like 
to ask you each of you personally how you feel about it, 
because I think as you have seen in all of us, it has guided 
our view and the questions we ask. I think really the goal is 
to see how you craft up a process that is fair and open to 
repeal or not, but somehow is guided by the very conflicting 
views that understanding that should we repeal it, you have to 
move forward.
    I would like to ask each of you your personal views on 
repealing Don't Ask, Don't Tell.
    Mr. Johnson. Well, without a doubt I am a member of the 
Obama administration. The President has said he would like the 
Congress to repeal. So I am part of his administration. Having 
said that, my assignment and General Ham's assignment is to do 
an objective, comprehensive review of the implications of 
repeal of the policy. And what General Ham and I are really 
trying to do here in recruiting people to our working group and 
soliciting views from the force is to, within our working 
group, not solicit personal opinions and not have people take 
sides on what is a very emotional issue so we can gather 
information in an objective, thorough way and encourage people 
to tell us what they think about the impact of repeal.
    So I am trying very hard to approach this in an objective, 
thorough, comprehensive fashion and create an environment 
conducive to others within the force telling us what they think 
the impact of repeal would be. But I am without a doubt a 
member of the Obama administration, but I am trying to approach 
my assignment like a lawyer, as for me, to gather information 
in an objective and thorough way.
    Ms. Tsongas. Doctor.
    Dr. Stanley. Congresswoman, as the Under Secretary of 
Defense for Personnel and Readiness, as soon as I assume that 
responsibility, knowing that I am a part of the Obama 
administration, and knowing exactly what the intent was with 
regard to repeal, my job immediately became obviously to be not 
only open-minded and objective, but to be ready if Congress 
actually repealed the law. So, I mean, literally the whole 
issue of readiness is center, it is like my plumb line, and the 
working group that I am not an active part of, but have--you 
know, working with them, is something that I am very focused on 
because I have to make sure that we are ready in the Department 
of Defense if, in fact, Congress repeals the law.
    Ms. Tsongas. General.
    General Ham. Congresswoman, as stated, my personal view is 
that I think it is very important that we understand the 
impacts of repeal should it occur, and that is where I am 
personally. I really want to have a better understanding of 
what the impacts may be before repeal occurs. That is, frankly, 
why I am honored to be a part of this effort, because I think 
that is exactly the question we are going to answer.
    Ms. Tsongas. As you crafted and put together the working 
group, what is the mechanism by which you find balance? I think 
there is a variety of views here. What is the mechanism by 
which you make sure as you are bringing others into the group 
that you find a balanced approach so that we can move forward?
    Mr. Johnson. Well, to be sure, in reaching out to bringing 
people to the working group, we haven't asked their personal 
views about the policy. We want objective, thoughtful people. 
We have endeavored to get working group members from all four 
services, from a cross section. Secretary Gates believes that 
the enlisted force, hearing from the enlisted force in 
particular, is very important, and the group consists of 
civilian and military. When we sit around a conference table 
with our working group leaders, most of the people at the 
conference table are in uniform. And I think that that is 
essential in conducting this.
    Ms. Tsongas. It will eventually go back to Congressman 
Murphy's question, too, about how you are going to solicit the 
opinion of gays and lesbians currently serving without putting 
them at risk so you get that full, balanced view of those 
actively serving today.
    Mr. Johnson. That is something we want to do, and we are 
looking at mechanisms for doing that.
    Ms. Tsongas. Thank you.
    Mrs. Davis. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Madam Chairwoman. And thank you for 
having this hearing.
    I think it is very important. I wish we could just get this 
done and move on as some--many other militaries have. At least 
28 other countries, including Great Britain, Australia, Canada 
and Israel, already allow open service by gay and lesbian 
service members. And the experiences of these countries show 
that open service works, and that implementation of open 
service has been--historically been uneventful in those 
countries.
    So my question to you will be are you going to look at the 
experiences of these other countries that have led with open 
service during your review of Don't Ask, Don't Tell? And what 
would you expect to learn from these experiences? How would you 
expect to use that in your deliberations and your report?
    General Ham. Congresswoman, I will start off. It is an 
important part of our study, in two particular ways. First, we 
have been directed by Secretary Gates to update the 1993 study 
performed by RAND, which did look at what are called analogous 
institutions, which included the foreign militaries. So an 
updating of that, I think, is required by the study, and so we 
shall do.
    Secondly, both Mr. Johnson and I have already met with 
senior leaders, both military and civilian, from other nations' 
militaries. Last week I was in Israel. I have scheduled visits 
to other European nations upcoming in the near future. We will 
have the opportunity to engage with their senior leadership, 
both military and civilian, to discuss precisely the matters 
that you address: How did they implement? What were the 
challenges, if any, that they encountered? In some cases after 
an initial period of implementation, were there other 
manifestations that affected sometime after laws or policy 
changes? So I think we have a good way ahead to look at foreign 
militaries.
    Having said that, we must understand that our military is 
our military, and we have a uniquely American culture and 
approach to how we do things. But I believe that our effort, 
and certainly this working group's effort, will be informed by 
the experience of others.
    Mr. Johnson. I agree, Congresswoman. I think it is relevant 
information. We intend to look at that issue, recognizing that 
the United States military is unique in its size and its scope. 
There is no perfect comparator to the United States military, 
but I think it is relevant information.
    Ms. Sanchez. I would agree, I think it is relevant 
information, especially when you look at all the work that we 
do on the interchangeability of our military working with other 
militaries, whether it is with respect to NATO, for example, or 
just--I sit on Western Hemisphere Institute for Security 
Cooperation (WHINSEC), where we work with Latin American 
countries to teach their military about the way we work and to 
get them to work more in a civilian to military standpoint, for 
example. So I think that is important, especially when you look 
at, for example, the NATO lines, which I believe has only two 
countries right now that do not have openly gay members 
serving, if you will. That would be the United States and 
Turkey.
    My next question is the military currently has strict 
regulations regarding sexual assault, fraternization and other 
illegal or inappropriate conduct. Nothing about open service 
seems to indicate that these rules would not be able to be 
applied directly or in an equal manner to gay and straight 
service members. So why would the repeal of Don't Ask, Don't 
Tell require a change to the current code of conduct? And 
shouldn't gay and straight members be held to the same strict 
standards that we have, standards that already exist in our 
code?
    Mr. Johnson. Congresswoman, I don't know that a repeal of a 
policy would require any changes to the rules on fraternization 
or otherwise. It is one of the things we are going to look at, 
but I don't assume that it would or it wouldn't. There are many 
who believe what you just said.
    Ms. Sanchez. Thank you. Thank you, gentlemen. In the 
interest of time, I will yield back.
    Mrs. Davis. Thank you very much.
    I think we are going to try and do another round quickly. I 
am going to ask one or two questions, and then Dr. Fleming. I 
think some Members would certainly like to come back. I know, 
Mr. Johnson, you are not able to.
    Secretary Stanley and General Ham, can you come back? We 
have about maybe as much as 40 minutes. Is that going to be a 
problem for you? You can come back?
    Dr. Stanley. I can come back.
    General Ham. I can come back.
    Mrs. Davis. Great. Thank you very much.
    Quickly, I wanted to get to the issue that has been posed, 
and I think that Secretary Gates had said that something should 
be done about third-party outings, and suggested that perhaps 
by mid-March that you would have had a chance to look at seeing 
if the policy could be done in a fairer manner. And actually it 
was suggested that this could be done by mid-March. Can you 
confirm that the working group will be prepared to look at 
those possible changes? And do you believe that Congress should 
have an opportunity as well to look at those proposed changes?
    Mr. Johnson. What Secretary Gates has directed me to do is 
to review the implementing regulations and look to see whether 
within the confines of the existing law, and that is the key, 
within the confines of the existing law, the regulations can be 
revised in a way to make them fairer and more appropriate. That 
he asked me to do, and that is separate and apart from the 
working group's assessment. And he has put me on a 45-day 
track, which would mean that my recommendation to him is due on 
or about March 19th. And that is something that is under way. 
We are doing that right now. We are getting comprehensive input 
from the services on that topic, and I expect that we will meet 
our 45-day timeline.
    Mrs. Davis. I believe that Mr. Murphy had asked earlier, 
and I cut him off, how you are going to get the views of 
service members who are gay and lesbian that are serving 
without any sense of retribution. Do you have anything else you 
would want to add to that statement?
    Mr. Johnson. We think that is something we should do, and 
we are looking at mechanisms for doing that within the confines 
of the law.
    Mrs. Davis. And finally, just from this question, women 
tend to be separated proportionally greater than men. Have you 
had a chance to look at that issue? Is that something that you 
think you will be taking a look at? And why that is the case, 
and how would it impact what you are doing?
    General Ham. Madam Chairwoman, I think it is obvious to all 
of us the statistics tell us that. And I think as part of our 
review is to try to gain an understanding as to why that is; 
are there some underlying causes for that disparity to occur. 
And again, keeping military readiness and effectiveness 
foremost in our minds as we look toward how policies might 
change should the law be repealed, I think that would be an 
important consideration, the gender difference.
    Mrs. Davis. Thank you.
    I am going to turn to--Mr. Wilson, I believe, is going to 
defer to Dr. Fleming.
    Dr. Fleming. Thank you, Madam Chairwoman.
    One quick question. This report that you are going to do is 
due in December; is that correct? December of this year.
    Mr. Johnson. December 1st.
    Dr. Fleming. Have you looked at or are you considering what 
other laws, rules, policies that this may impact that are not 
directly related to this?
    Mr. Johnson. Our mandate is to look at the impact of a 
repeal of section 654 of title 10 U.S.C. I do not construe our 
mandate to make recommendations about the repeal or amendment 
of any other law.
    Dr. Fleming. Are you going to study the impact that that 
might have on others, unintended? I mean, obviously if this 
repeal were to occur, we could get unintended consequences that 
no one would be happy with. Certainly we should look out into 
the horizon to see if there might be others. And I am just 
asking if that is something the panel would be looking at.
    Mr. Johnson. I would say that that is part of our mandate, 
consequences.
    Dr. Fleming. I would certainly ask that if it is not 
planned, that you do plan to do that, to take a look at what 
the unintended consequences might be for repealing section 654.
    And with that I yield back.
    Mrs. Davis. Thank you.
    So we will come back in about 30 to 40 minutes, and really 
appreciate your hanging around with us this afternoon. Thank 
you very much.
    Mr. Johnson, good luck. We thank you for saying yes. We 
know this was a volunteer activity of sorts, but we know what 
that is like.
    Mr. Johnson. You are assuming it was voluntary.
    Mrs. Davis. We appreciate it very much. We will be back. I 
certainly encourage Members to come back.
    [Recess.]
    Mrs. Davis. Okay. Thank you very much for waiting during 
that voting period. We are going to begin again. We will begin 
with Dr. Snyder.
    Dr. Snyder. Thank you, Madam Chair.
    And thank you for being here.
    I want to visit this issue that we have talked on and 
touched on already today about how do you get input from 
lesbians and gays that are already serving? Mr. Murphy 
mentioned the problem of gays and lesbians that are serving 
being able to share with--I guess the term was ``battle 
buddies,'' some of the joys and sorrows of life.
    I was talking with a lesbian colonel a week or two ago. She 
described to me a situation that she knows has happened where 
somebody serving in Iraq on Skype was able to watch in real 
time the birth of his child. Sitting right next to him was a 
lesbian woman who had a partner back home who was pregnant, and 
she knew she would not be able to do that same thing; that she 
put herself at risk for losing her job and the ability to 
support her family, her growing family. Those are the kinds--
just one narrow example--the kind of risks that gays and 
lesbians in the service feel. So I don't see how you gather the 
kind of information, have the kind of exchanges you want.
    General, describe that for me. I suspect since you have 
been appointed, you have already had people come up to you, 
heterosexuals, express views back and forth against repeal. My 
guess is you haven't had full-bird colonels or general officers 
come up to you and say, I want you to know that I am lesbian or 
gay, and I really think this policy should be repealed. They 
would be foolish to have that kind of exchange with you; it 
puts their career at risk.
    So how are we going to do this to gather the kind of 
information you want when you talk about readiness issues? I 
consider the situation I described a readiness issue. That 
woman will not be able to view the birth of her child the way 
that her partner could.
    General Ham. Congressman, you ask a great question, and 
today we don't have a great answer for you. Other than the fact 
that Mr. Johnson and I both agree that we must find a way for 
the views of homosexuals who are currently serving in the 
military to have their voice heard without triggering the 
separation actions which are currently required by law. I am 
not sure how we are going to go do that just yet, but we are 
looking for ways.
    A way that we know we can do it is there is a third party 
conducting a focus group or conducting interviews that would be 
outside of the Federal Government, outside of the Department of 
Defense, and not obliged to pass that information that--
prohibited from passing that information, personalized 
information, to myself or Mr. Johnson such that would trigger 
separation action under the current law. We will work for ways 
to do that.
    It is also important for us, as I mentioned at the outset, 
as we endeavor to explore opportunities to use social media as 
an opportunity for individuals to report anonymously their 
concerns.
    So we share with you the concern and the absolute necessity 
to reach out and hear from homosexuals who are today serving in 
the force. We don't yet know how to do that, but my pledge to 
you is that we will find a way, and we will do that. We know 
that we have an opportunity to engage those who have been 
separated under this current law. We think that would be 
instructive to us, but those who are currently serving as a 
special group and require special attention as to how we gain 
their insights, again without triggering separation action.
    Dr. Snyder. I asked General Casey a week or so ago, I think 
I kind of rudely phrased my question, why do I have more 
confidence in your leadership skills than you do? And my point 
being that I have no doubt, given all the challenges the 
military has faced over the last couple decades, the level of 
training, the level of professionalism, my experience as an 
Armed Services Committee member for almost 14 years now, that 
whatever this Congress decides, that you all will be able to 
carry it out at all levels of leadership.
    So my question for you, General Ham, is should we follow 
the recommendation of Mr. Murphy and do the repeal, recognizing 
that it will be several months, if not longer, before it would 
be fully implicated, do you have any doubt of the leadership 
skills of the military today to be able to carry out that 
policy in an effective way?
    General Ham. Congressman, when I enlisted as a private and 
served in the 82nd Airborne Division, I took an oath, and as a 
general I took an oath. And that oath begins that I will 
support and defend the Constitution of the United States. That 
means we obey the law, and we follow the law in all that we do. 
And if the law changes, there is no doubt in my mind that the 
leadership within the Department of Defense and in the 
uniformed services will follow the law as required and with 
full energy.
    Dr. Snyder. Thank you.
    Mrs. Davis. Thank you.
    Mr. Murphy.
    Mr. Murphy. Thanks, Madam Chair.
    And, General Ham, thank you for that opening statement. And 
I couldn't agree more. And that was a great honor not just to 
serve in the 82nd Airborne Division, but also to teach what 
that Constitution stands for to the next generation of military 
leaders when I taught firsties at West Point for a few years, 
and then deployed with those young second lieutenants in two 
deployments after 9/11.
    I know there will be a lot of facts and studies thrown your 
way as you go about your due diligence. I applaud you, and I am 
praying for you, as everyone else in the country is, because it 
is important work.
    I am sure there is no doubt that you have either already or 
will read a few months ago the Joint Force Quarterly, titled 
``The Efficacy of Don't Ask, Don't Tell,'' by Colonel Prakash 
from the United States Air Force. And for those who are not 
aware, Joint Force Quarterly is published for the Chairman and 
the Joint Chiefs of Staff by the National Defense University. 
The Colonel obviously spoke in his article and giving a 
balanced view of the debate within the military community. And 
while I encourage everyone to read that article, which I 
thought was very well done, also I would like to point out 
several of the most striking quotes that I thought were worth 
noting. And I quote, ``There are potential lessons to learn 
from other countries that have lifted the ban on homosexuals 
serving openly. There was no mass exodus of heterosexuals, and 
there was [also] no mass `coming out' of homosexuals. Prior to 
lifting their bans, in Canada 62 percent of the servicemen 
stated they would refuse to share showers with a gay soldier, 
and in the United Kingdom, two-thirds of males stated that they 
would not willingly serve in the military if gays were allowed. 
In both cases, after lifting their bans, the result was `no-
effect.' In a survey of over 100 experts from Australia, 
Canada, Israel and the United Kingdom, it was found that all 
agree the decision to lift the ban on homosexuals had no impact 
on military performance, readiness, cohesion, or ability to 
recruit or retain, nor did it increase the HIV rate among 
troops.''
    He concluded his article by saying, Don't Ask, Don't Tell 
``has been costly both in personnel and treasure. In an attempt 
to allow homosexual Servicemembers to serve quietly, a law was 
created that forces a compromise in integrity, conflicts with 
the American creed of `equality for all,' places commanders in 
difficult moral dilemmas, and is ultimately more damaging to 
the unit cohesion its stated purpose is to preserve. 
Furthermore, after a careful examination, there is no 
scientific evidence to support the claim that unit cohesion 
will be negatively affected if homosexuals serve openly. In 
fact, the necessarily speculative psychological predictions are 
that it will not impact combat effectiveness. . . . Based on 
this research, it is not time for the administration to 
reexamine the issue; rather, it is time for the administration 
to examine how to implement the repeal of the ban.''
    And I know you are going to look at as far as how it 
affects gay and lesbian soldiers, and marines, and airmen in 
showers in our military. And I understand we have kicked out 
13,000 in the past almost 17 years. I also understand the 
estimate is there are 66,000 gays and lesbians currently 
serving in our military that are, frankly, willing to take a 
bullet for every single one of us in this room, and for the 
Americans in our country.
    But I also think that when we look at not just those 
66,000, it is also those 13,500 units out there that they are a 
part of, and the fact that when you rip out one of those, when 
you initiate a chapter 15 hearing just because there is a SAM, 
a statement, act, or marriage, that means that you are having 
an administrative hearing to determine whether someone is gay 
or someone is straight. I have seen cases and I heard of 
soldiers that they were actually straight and had to go prove 
and get women to testify that they slept with them, that they 
were really straight. And when our country is at war right 
now--and I am not trying to lecture you, I am just very 
passionate about it, so please don't take it against you. But 
when you understand that there was 3,000 innocent Americans 
that were killed, that were murdered on 9/11, that we are 
fighting against people that want to still kill us today, and 
we are fighting against al Qaeda that are doing all they can to 
go into Pakistan to get their hands on their nuclear weapons, 
we need to focus energy on capturing and killing the enemies of 
the United States of America, not to have hearings to determine 
whether or not they are gay or straight and how it affects the 
13,500 units that are all working as one team, no matter what 
their race is, their color, their creed, or their sexual 
orientation.
    Gentlemen, I appreciate what you are doing for our country, 
and I yield back the balance of my time.
    Mrs. Davis. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. I think Congressman Murphy has said it so well 
about the concerns we have. And as we have asked so many times 
how you are going to protect gay and lesbians service members 
as you do the work going forward, and when you hear that huge 
number of 13,000-plus, I would hate to see that in the course 
of your doing this work any single member separated because 
they are willing to come forward and talk to you. And as you 
talk about the hoops you are going to have to jump through to 
solicit their opinion to put in place third-party people who 
don't have the same responsibility, it just seems to me a more 
appropriate way to go forward was simply to put in place a 
moratorium so that you can do your work, do it well, get the 
full range of opinions without anybody fearing reprisal, and go 
on from there.
    So I welcome your thoughts on something that is a 
moratorium, a straightforward, simple, but sounds to me like it 
is going to become so layered in the interest of getting all 
the appropriate opinions that you need. And related to that, 
too, General Ham, you talk about soliciting information from 
families. I am just also curious as to how you define a family. 
Is it parents, spouse, siblings? And how as well you would get 
the opinions from gay and lesbians' family members.
    General Ham. Congresswoman, again, I think it is vitally 
important that we seek the opinions and the views and the 
effects on readiness that homosexuals who are currently serving 
can express to us. Again, I am not certain yet how to do that. 
I am confident we will find a way to be able to do that without 
triggering the separation actions that are required by the 
current law. As we work our way through this, I am confident 
that we would keep you informed as to how we might be able to 
do that.
    With respect to your question about families, it is not 
further defined in our terms of reference. And so I think Mr. 
Johnson and I have some degree of latitude in how we reach out 
to the families that are supporting our servicemen and women in 
the force today.
    Again, we are very early in this process, and so we haven't 
crafted yet the precise mechanisms to do that, but I would 
assure you that we will find a way to seek a wide range of 
views and opinions on this very important matter.
    Ms. Tsongas. And what would be the purpose of soliciting 
families' input? What would you be looking to?
    General Ham. We know, Congresswoman, that the families have 
a direct relationship on civilians' willingness to enlist, 
service members' willingness to reenlist or to extend their 
service. We know that service members' commitment to the 
service and to the mission is affected by the way in which 
their families are cared for. That is particularly notable in 
this time where we require so many of our service members to 
deploy into remote areas. The assurance that their families are 
well cared for while they are deployed has a direct 
contribution to readiness, and therefore I agree wholeheartedly 
with Secretary Gates' direction to us that we must consider 
that in our review.
    Ms. Tsongas. Doctor, would you like to comment at all?
    Dr. Stanley. Actually I don't have much to add to that.
    Ms. Tsongas. Thank you. I yield back.
    Mrs. Davis. Thank you.
    I wonder if you could try and map out for us just a little 
bit. I know there are going to be several working groups, and I 
don't know about how many people are going to be in each of 
those groups. Just let us know how you see this--when you are, 
say, in the middle of this process, how do you see that 
working? And do you expect to call on individual contractors 
who could be helpful in terms of whether it is surveys or face-
to-face contact, whatever that may be? Do you have any sense of 
that at this point, how this is going to be playing out?
    General Ham. Madam Chair, we do have a reasonable sense of 
how we are going to proceed. We have an organizational 
framework upon which we are building the teams. The leadership 
of those teams is pretty well decided. The functional teams for 
this review are four. There is a team that we call the survey 
team that is focused on answering the first questions of what 
does the force believe will be the impacts of repeal should 
that occur, again, reaching out to family members as well and 
to other interested parties in this process.
    A second group is focused on the legislative and legal 
aspects of this. Not surprisingly, that team is comprised 
mostly of civilian and military judge advocates general to look 
at the aspects of the laws outlined in the terms of reference 
to us.
    A third team looks at the policy, and this is perhaps the 
core of the effort, what policies would be affected by a 
potential repeal of the law. So first is to determine what that 
body is, and then to assess and make recommendations as to how 
policy might have to change or would appropriately change if 
the law were changed.
    And then finally, the fourth team we call education and 
training, and that is essentially how you promulgate change. 
Should repeal occur and policies are changed, how do we in a 
coherent and consistent manner ensure the force in being today 
and those who join the force from top to bottom are adequately 
trained and informed as to these changes so our service members 
of all ranks, our commanders at all levels are applying new law 
and policy consistently.
    Secretary Gates also directed that our effort be very 
closely aligned with the individual service efforts in this 
regard. To that end, he has formed what we call an executive 
committee, comprised of Secretary Stanley, the service under 
secretaries, the service vice chiefs, the chief of the National 
Guard Bureau, to provide linkage between the DOD working group 
effort and the effort of the individual services who, if the 
law is repealed and policy changes, would necessarily be those 
who would implement such changes. So in broad term that is how 
we are organized, Madam Chair.
    Mrs. Davis. Do you anticipate seeking the help or the input 
from our recruiters out in the field, and how would you use 
them?
    General Ham. Yes, ma'am, we would again seek a broad range 
of inputs. Recruiters of all services and all components would 
certainly have interesting insight into this to answer the 
specific question as to what effect, what impact might be on 
recruiting if the law were repealed. Similarly we will reach 
out to the service academies, for example, to the Reserve 
Officer Training Corps programs to get their assessment of what 
the impact of repeal might be. So again, a broad range of 
inputs.
    Mrs. Davis. One of the issues that is difficult to get a 
handle on, and I suspect that in the past there has been some 
effort to do this, I think what you are focusing on, and quite 
appropriately, is the here and now, the people that are serving 
today. But we know that 20 percent or so of men and women in 
this country are eligible for service, and for a number of 
reasons they choose not to apply, not to be part of the 
service.
    Many people are concerned that one of the things that is 
very important right now is to say to young people, we want you 
to think about being in the Army, the Marines, what have you. 
We want you to even think about some of the specialties within 
our services that take graduate and further education. How do 
we get at trying to ascertain the extent to which people who 
happen to be gay or lesbians choose very early on that this is 
not something that they care to do because of the inability to 
serve openly? Are you interested in any way trying to get at 
that issue? Because national security is primary here. That is 
what we are all about. And the ability to have every person in 
this country who chooses to serve their country do that is 
very, very important.
    And I am wondering if there is some way that you can also 
get a handle on that issue, because I am certain that there are 
people who would suggest that maybe they don't want to be in 
the service anymore. We have a lot of people who may choose to 
be, but today, quite honestly--and I have met a number of them 
who come up and say, you know, I want to go on to further 
training in medicine, I have been asked to have a scholarship 
in the service, but I am not sure I want to do that. Can you 
help me with that? How are we going to get a handle on that 
issue? And do you think it is important to your work?
    General Ham. I will try first, Madam Chair, and the 
Secretary can add on.
    We do have a task to seek the assessment of influencers. 
And I think that gets to the group perhaps that you are 
addressing, educators, employers, groups of individuals who do 
exert an influence on particularly young people who may be 
considering military service. Again, early in this process, I 
am not sure how we will do that, but we will find a way, and I 
think it is an important group for us to listen.
    Dr. Stanley. Actually I was listening to your question, 
Chairwoman Davis, because I actually thought that you were 
going to go at it from a different way, because I was actually 
thinking that some of what our assessment would be would be to 
really get to the root of some of that, because there are 
people who would not join, as well as people who would join, 
and that becomes a readiness impact issue, which is something I 
hope the assessment, the review would bring out.
    As I was looking at it, that is actually one of the kind of 
things I was looking at, because I am thinking now 10, 15 years 
down the pike. The issue of readiness is a critical issue. It 
deals with the armed forces, and the primary mission as 
mentioned by the Congressman is a question that was asked early 
on. We know what that mission is, and it is very important that 
that mission not be compromised. It is critical, vital that 
mission not be compromised.
    So I am just joining at a certain level the working group, 
but the bottom line is that central, again, is readiness, and 
hopefully the review will give us what we need to get that 
question from a number of perspectives.
    Mrs. Davis. Thank you, because if we approach it 
recognizing that there are certainly a pool of people out 
there, and we certainly want to make certain that they at least 
can consider the services, I think that is going to be very 
important as well.
    We really appreciate your being here. Are you okay to take 
a few more questions?
    Mr. Wilson, no?
    Dr. Snyder.
    Dr. Snyder. I had three questions. Does the study envision 
learning from other parts of our government in deployed 
situations? I don't know, the classic myth or metaphor of the 
shower. Well, we already have civilian contractors, we have 
U.S. civilian employees that don't have policies of Don't Ask, 
Don't Tell. Are you planning to learn from folks that you 
already serve with and use the same facilities of other 
branches of the U.S. Government other than the military? Is 
that your intent, General Ham?
    General Ham. It is, Congressman. One that comes immediately 
to mind is the United States Agency for International 
Development (USAID) and organizations like that. I think 
certainly our effort would be well informed by reviewing how 
they are conducting business today.
    Dr. Snyder. Particularly since they are conducting business 
in the same environment with the same facilities that your 
soldiers are serving in.
    The second one is the point has been made more than once 
that recruiting is good. Our memories are not so frail that we 
forget we went through some problems with recruiting several 
years ago. In fact, the Army was changing standards in terms of 
raising ages, and stop-loss policy, and change educational 
standards for recruiting, and recruiters were having to work at 
it real hard. And so that is part of the history of this, too, 
not just what it is today, but what can it be at times when 
unemployment rate is 3\1/2\ percent, and it is a lot harder to 
get people to come in the military as it was several years ago.
    How are you going to process the issue--you all have done a 
good job of putting the study together. At some point I think 
there is something to be said--or maybe that is the 
congressional role rather than your role to step back and say, 
this is about America being America. And there is such an 
unfairness when we aggressively encourage--and I do it, too. 
Just a couple weeks ago I held an academy fair in my district 
and had representatives of all the services there. We 
aggressively recruit 16- and 17-year-olds to start thinking 
about the military, and you all aggressively recruit 17-, 18-, 
19-year-olds to enlist in the military. And if you talk to 
folks and spend some time with folks as they go through this 
process of discovering what their sexual orientation is--I 
mean, there is a lot of confusion whether you are homosexual or 
heterosexual when you are 16, 17 and 18. That can be kind of a 
volatile period.
    This unfairness of where we aggressively target people to 
sign up at a young age and then pretty aggressively tell them 
that they can't serve. The comment was made earlier that, well, 
there was this many that had been--13,000 or whatever--put out 
since 1993, but most of them were in the earlier years of their 
service, as if they are, what, throwaways? I mean, we went 
after them at that young age. How does that fit in with the 
whole idea of fairness towards young people that we 
aggressively recruit at a time when folks are trying to sort 
out the most intimate aspects of their personality?
    Dr. Stanley. Well, Congressman, again, I am not trying to 
sound like a broken record, but I am hoping that the review, 
the assessment that is ongoing, just started, will be 
addressing what you are talking about. When I joined the 
military now over almost 40 years ago, those issues of 
fairness, equity, they were with me then, and they are with me 
today. I left for a few years; I am now back in a different 
capacity. But the issues of fairness and equity, I would go 
without saying they are absolutely important.
    Again, the vital role of readiness, our nation and where we 
are--and that is where the assessment comes in, because there 
are some unknowns, and there are some hypotheticals that we 
don't know right now, and the assessment and review will give 
us the answers. I will go as far as to say, which I hope will 
be obvious, that we are looking forward to working very closely 
with you.
    Dr. Snyder. I think most of us--I should say Patrick and 
Ms. Davis and I are convinced that ultimately this country will 
conclude that not only is our country better off, but our 
military is better off, that our Army is better off, that our 
grunts on the ground are better off by having the kind of 
leadership and dynamic within the military amongst those young 
people, those 18-, 19-, 20-year-olds that are serving overseas 
today, that recognize that gays and lesbians can openly serve, 
that America becomes a better America; that this is not about 
doing favors to gays and lesbians, it is about recognizing this 
is a step of America being a better America. Thank you for your 
service.
    Mrs. Davis. Thank you.
    Mr. Murphy.
    Mr. Murphy. I would just like to echo that, gentlemen, I do 
think our country and, most importantly, our military will be 
better off, and that it will help our national security not to 
throw out 13,000 troops who are willing to fight for us to keep 
us safe, and also among them some of the best Arabic, Farsi 
translators, some of our fighter pilots, some of our infantry 
officers, some of our mechanics.
    Secondly, the American taxpayers will be better off. There 
are studies that show this wrongful policy is costing the 
American taxpayer $1.3 billion.
    So it kind of goes back to Mr. Snyder's earlier comments in 
his first question in that, you know, when we all took an oath 
as either a Marine officer or an Army officer, you know, that 
special trust and confidence that our government put in us, in 
our leadership ability. And I would just say that we should 
have special trust and confidence in these young American 
heroes. And we should have a special trust and confidence in 
the non-commissioned officer (NCO) corps and also the officer 
corps to do the right thing.
    And when you are doing your study, I would just say make 
sure we are cognizant of the fact that--to put in the 
historical context; that when we were in the middle of the 
Korean War, when we lost tens of thousands of our young 
Americans over there, the fact is, is that when half of our 
country was still segregated between black and white, and we 
had colored water fountains, and colored bathrooms, and colored 
restaurants, the fact is, is that we said that we were going to 
desegregate our military because we all wore green, we all took 
that oath, we all picked up the rifle and defended our country 
overseas.
    And that same challenge is going today in both Iraq and 
Afghanistan, and I do think that when you make your decision 
that not to be so cautious, so meticulous; to realize that at 
the end of the day, it goes back to the goodness of our 
country, and it is that young GI, the young man or woman who is 
willing to take the same oath that we all took.
    And of course, General Ham, I am going to have to give you 
another shout out with the 82nd Airborne Division real quick 
because when I was there in division, you know, when I was 
there in 2003 in the middle of Baghdad when it was 138-degree 
heat, I think the greatest thing that I got to witness as a 
captain was that you would get these paratroopers, and if you 
grabbed an 18-year-old paratrooper in the 82nd Airborne 
Division, you could say, paratrooper, I am going to give you 
one week to learn how to fly the space shuttle. By God darn it, 
that paratrooper would help make it happen somehow. If we just 
go and just say we have a nondiscrimination policy because we 
all take the same oath, and we are all different colors in our 
military, we are all different races, and we are all different 
religions, and we all have, frankly--some of us have different 
sexual orientation, but the fact is that we are focused on 
keeping America safe and taking that oath to support and defend 
the Constitution.
    So thank you, gentlemen. I appreciate it. God bless you, 
and God bless our military. Thanks.
    Mrs. Davis. Thank you. We really do appreciate your coming 
at this stage of your work.
    One of the things I would just add, because I would suspect 
that there may be some differences as you begin to reach out 
that you find regionally. Urban, suburban, rural, you know, 
there really are differences, but I don't think that we ask our 
young men and women who join the services today to do anything 
different depending upon where they come from. And so the 
expectations should all be the same, and I think that as we 
work to try and develop the very, very best process that you 
can, we need you to take that certainly into consideration.
    I would ask and wonder if you could commit to us that 
perhaps, you know, as you get under way, and whether it is 
halfway through or three-quarters the way through the process, 
that perhaps you might come back to the committee, let us know 
how things are going, is there anything that you need from us, 
and to give us a sense of where you are, how tough has this 
been, where have you found some roadblocks that you have been 
surprised by. What is it that has been very different than what 
you expected as you take this journey? And we certainly would 
be very pleased if you could do that, and I am wondering, 
General Ham, if you might commit for your side if that would be 
a possibility.
    General Ham. Madam Chair, Secretary Gates felt strongly 
enough about this that he included it in the terms of 
reference. It is a specific direction to Mr. Johnson and myself 
to engage with the Congress and keep you advised. So we look 
forward to doing just that.
    Mrs. Davis. Great. Thank you very much.
    And to you, Secretary, welcome again. We know we are going 
to be working very closely with you, and I look forward to 
that. Thank you very much.
    [Whereupon, at 5:22 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             March 3, 2010

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 3, 2010

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 3, 2010

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  <all>

</pre></body></html>
